DOCKET NO: 20-1402
IN THE SUPREME COURT OF THE UNITED STATES
STEPHEN HAMMONDS, PETITIONER V. ROBERT THEAKSTON, ET. AL. RESPONDENTS
ON PETITION FOR WRIT OF CERTIORARI TO THE SUPREME COURT OF ALABAMA
RESPONDENTS’ CERTIFICATE OF SERVICE OF THE BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI
Counsel of Record: Jamie Helen Kidd Frawley

Counsel for Respondents Robert Theakston and Matthew Martin
WEBB MCNEILL WALKER PC
7475 Halcyon Pointe Drive (36117)
Post Office Box 240909
Montgomery, Alabama 36124
(334) 262-1850
jfrawley@wmwfirm.com

I hereby certify that on this the 7th day of June 2021, I electronically filed an
Brief in Opposition to the Petition for Writ of Certiorari, and sent one copy (pursuant
to the Order dated April 15, 2020) via United States Mail, First-Class, Pre-Paid and
served a copy of the same on Counsel for Petitioners via electronic mail by consent of
the Parties:
Daniel Patrick Evans, Esq.
G. Daniel Evans
The Evans Law Firm, P.C.
1736 Oxmoor Road, Suite 101
Birmingham, Alabama 35209
(205) 870-1970 – T
dpevans@evanslawpc.com
gdevans@evanslawpc.com
Counsel for Petitioners

Respectfully submitted this the 7th day of June 2021.

s/ Jamie Helen Kidd Frawley
Counsel of Record,

Robert Theakston and Matthew Martin

COUNSEL FOR RESPONDENTS ROBERT THEAKSTON AND MATTHEW MARTIN
Jamie Helen Kidd Frawley (Counsel of Record)
J. Randall McNeill (Additional Counsel)
WEBB MCNEILL WALKER PC
7475 Halcyon Pointe Drive (36117)
Post Office Box 240909
Montgomery, Alabama 36124
(334) 262-1850 – T
jfrawley@wmwfirm.com
rmcneill@wmwfirm.com

